           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Quality Control Review on the                                         Date:    July 15, 2014
           Single Audit of the Central Puget Sound Regional
           Transit Authority
           Report No. QC-2014-063


  From:    George E. Banks, IV                                                             Reply to
                                                                                           Attn. of:   JA-20
           Program Director for Single Audit

    To:    Regional Administrator, FTA, Region X


           The U. S. Department of Transportation (DOT) is the cognizant Federal single audit
           agency for the Central Puget Sound Regional Transit Authority (Sound Transit). This
           report presents the results of our Quality Control Review (QCR) on DOT’s major grant
           programs included in the single audit of Sound Transit performed by KPMG LLP
           (KPMG) for Sound Transit’s fiscal year ended December 31, 2012. During this period,
           Sound Transit expended approximately $128 million from DOT grant programs, as
           shown on the attached Schedule of Expenditures of Federal Awards. KPMG determined
           that DOT’s major programs were the Federal Transit Cluster and Clean Fuels.

           The Office of Management and Budget’s (OMB) Circular A-133, “Audits of States,
           Local Governments, and Non-Profit Organizations,” requires the auditor to render an
           opinion on the entity’s financial statements, identify inappropriate use of Federal funds,
           and report internal control and compliance deficiencies that affect Federal grant
           programs.

           KPMG rendered an unmodified opinion on Sound Transit’s financial statements and
           compliance with DOT’s major program requirements for the Federal Transit Cluster and
           Clean Fuels and did not question any costs. 1




           1
               The single audit report issued by KPMG LLP is available upon request at singleauditrequest@oig.dot.gov.
                                                                                    2


SCOPE

The purpose of our QCR was to determine: (1) whether the audit work complied with the
Single Audit Act of 1984, as amended, and OMB Circular A-133; and (2) the extent to
which we could rely on the auditors’ work on DOT’s major programs, the Federal Transit
Cluster and the Clean Fuels.

RESULTS

We determined that KPMG’s audit work was Acceptable, and therefore, met the
requirements of the Single Audit Act, OMB Circular A-133, and DOT’s major programs.
We found nothing to indicate that KPMG’s opinion on each of DOT’s major programs
was inappropriate or unreliable.

If you have any questions concerning this report, please call me at (410) 962-1729, or
John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.

                                           #

cc: Audit Liaison, FTA, TPM-2
    Audit Liaison, OST, M-1
    Controller, Central Puget Sound Regional Transit Authority
    Partner, KPMG
                                                                                                                    3


  CENTRAL PUGET SOUND REGIONAL TRANSIT AUTHORITY


    SUPPLEMENTAL SCHEDULE OF EXPENDITURES OF FEDERAL AWARDS
    YEAR ENDED DECEMBER 31, 2013
                                                                                          CFDA    Federal Award
Federal Grantor / Pass Through Grantor / Program Title                                   Number     Expended

Federal Transit Cluster
    U.S. Department of Transportation:
    Federal Transit Administration, Capital Improvement Grants                           20.500   $    93,414,775
    Federal Transit Administration, Operating and Capital Assistance Formula Grants      20.507        43,637,023
    ARRA-Federal Transit Administration, Operating and Capital Assistance Formula
    Grants                                                                               20.507          812,221

    Subtotal: 20.507                                                                                   44,449,244

    Total U.S. Department of Transportation                                                           137,864,019

Total Federal Transit Cluster                                                                         137,864,019

Highway Planning and Construction
    U.S. Department of Transportation:
    Federal Transit Administration, Highway Planning and Construction (Flexible
    Funds from Federal Highway Administration to Federal Transit Administration)         20.205          283,085

    Total U.S. Department of Transportation                                                              283,085

Total Highway Planning and Construction                                                                  283,085

Transit Services Program
    U.S. Department of Transportation:
    Federal Transit Administration, Job Access-Reverse Commute                           20.516             1,841
    Federal Transit Administration, Alternative Analysis                                 20.522          574,715

    Total U.S. Department of Transportation                                                              576,556

Total Transit Services Program                                                                           576,556
Other Federal Awards
    U.S. Department of Homeland Security:
    Federal Emergency Management Agency, Transit Security Grant Program                  97.075         1,013,347

    Total U.S. Department of Homeland Security                                                          1,013,347
    U.S. Department of Transportation:
    Federal Transit Administration, Federal Railroad Administration (Passed-Through
    WA State Military Department)                                                        20.317         1,958,882
    Federal Transit Administration, Public Transportation Research                       20.514            79,581
    Federal Transit Administration, Capital Assistance Program for Reducing Energy
    Consumption and Greenhouse Gas Emissions                                             20.523          553,094
    Office of the Secretary (OST) Administration Secretariate, National Infrastructure
    Investments                                                                          20.933         4,470,559

    Total U.S. Department of Transportation                                                             7,062,116

Total Other Federal Awards                                                                              8,075,463

Total Expenditures of Federal Awards                                                              $ 146,799,123


See accompanying notes to supplemental schedule
